           U.S. Department of the Interior
                Office of Inspector General

          AUDIT REPORT




   Bureau of Indian Affairs

Radio Communications Program

  Report No. C-IN-BIA-0017-2005

          January 2007
This Page Intentionally Left Blank
                         EXECUTIVE SUMMARY
                              WHAT WE FOUND
  BIA MISMANAGED
  ITS OLES RADIO              The Bureau of Indian Affairs (BIA) mismanaged the radio
  COMMUNICATIONS              communications program supporting its Office of Law
  PROGRAM —                   Enforcement Services (OLES). The results of this audit
  WASTING RESOURCES           demonstrate that BIA:
  AND CREATING AN
  ENVIRONMENT                    ¾ purchased and stored an estimated $3.6 million in
  CONDUCIVE TO                     radio equipment it could not use,
  FRAUD.
                                 ¾ lacked inventory controls over approximately $6.2
                                   million in radio equipment purchased since FY2000,
WHY WE DID THIS
AUDIT                            ¾ maintained inadequate contract documentation
                                   supporting $20 million expended on its conversion to
During our audit of the            narrowband radio technology, and
Department of the
Interior’s radio                 ¾ improperly awarded at least $5.5 million in sole source
communications program,            tasks to a contractor by inappropriately modifying an
we identified issues               existing task order.
related to BIA’s purchase
and storage of OLES radio     BIA started purchasing the equipment in FY2000 as part of its
equipment that merited        conversion to narrowband radio technology mandated by the
additional audit work.        Office of Chief Information Officer (OCIO). Due to unsafe
                              and deteriorating conditions in BIA’s radio communications
Our audit objectives were     infrastructure, the equipment could not be used. BIA did not
to determine whether BIA      have a plan to place the equipment in service prior to
1) appropriately placed       purchase. In the absence of a plan, BIA wasted valuable
OLES radio equipment in       resources purchasing unusable equipment, and will continue
service and 2) established    to incur storage and maintenance costs, as well as extensive
appropriate inventory         costs to upgrade, refurbish, replace, or dispose of the aging
controls over OLES radio      equipment. BIA also did not establish adequate property
equipment.                    records and inventory controls over the equipment, resulting
                              in greater potential for losses due to fraud, theft or negligence.
We expanded work to
address contracting issues    BIA did not maintain adequate records on its procurements
that came to our attention,   supporting the narrowband conversion. BIA was unable to
including inadequate          locate and provide any documentation for two contracts.
contract recordkeeping        Available documentation for other procurements was
and inappropriate             incomplete. Because procurement records were in such a
modifications of a task       state of disarray, BIA was unable to adequately account for
order.                        $20 million expended on the narrowband radio conversion.


                                              i
We also concluded that BIA violated Federal Acquisition
Regulation (FAR) by inappropriately modifying an existing
task order with Mindbank Consulting Group (Mindbank),
increasing its value from $1.5 million to $7.1 million and
extending the period of performance by over 2 years. Overall,
the modifications more than quadrupled the funding for the
task order and nearly tripled the period of performance.

Our report describes an environment that lacks control and
accountability over valuable BIA resources. This
environment exposes BIA to an unacceptable risk of fraud.
Our report provides six recommendations to address our
findings.

Based on BIA’s response to the draft report, included as
Appendix 4, we consider all the recommendations to be
resolved. BIA acknowledged that prior to 2003 its Land
Mobile Radio program was managed in a decentralized
manner. BIA stated that it implemented a reorganization that
consolidated program management in the BIA OCIO and it
has placed a great deal of the equipment since 2003. BIA also
stated that it has now completed an inventory of the
equipment and is in the process of reconciling discrepancies
between the inventory and accounting records. After
reviewing BIA’s response, our findings and recommendations
are unchanged from our draft report.




              ii
                                  TABLE OF CONTENTS
                                                                                                             PAGE


INTRODUCTION..................................................................................................... 1

         BACKGROUND ............................................................................................ 1

RESULTS OF AUDIT ..............................................................................................   3
     PURCHASE AND STORAGE OF UNUSABLE RADIO EQUIPMENT ..................                                          3
     INADEQUATE PROPERTY RECORDS AND INVENTORY CONTROLS
         OVER RADIO EQUIPMENT................................................................                     5
     POOR CONTRACTING RECORDS ...............................................................                     8
     IMPROPER TASK ORDER MODIFICATIONS ...............................................                            9

RECOMMENDATIONS ........................................................................................ 11

APPENDICES

         1. SCHEDULE OF MONETARY IMPACT.................................................... 15

         2. OBJECTIVES, SCOPE, AND METHODOLOGY........................................ 17

         3. ACRONYMS AND ABBREVIATIONS ..................................................... 19

         4. DOI’S RESPONSE TO DRAFT REPORT ................................................ 21

         5. STATUS OF AUDIT RECOMMENDATIONS ............................................ 27




                                                        iii
This Page Intentionally Left Blank




                iv
                           INTRODUCTION
             This report presents the results of our audit of the Bureau of Indian Affairs’
             (BIA) radio communications program supporting its Office of Law
             Enforcement Services (OLES). The objectives of our audit were to
             determine whether BIA:

                ¾ appropriately placed OLES radio equipment in service, and

                ¾ established appropriate inventory controls over OLES radio
                  equipment.

             We expanded our scope of work to address contracting issues that came to
             our attention, including inadequate contract recordkeeping and inappropriate
             task order modifications.

BACKGROUND   During the course of our audit of the Department of the Interior’s (DOI)
             Radio Communications Program (C-IN-MOA-0007-2005), we identified
             issues concerning BIA’s purchase and storage of unused radio equipment
             that merited additional audit work specific to BIA. To address these issues,
             we initiated a separate audit.

             In 1996, the Office of the Chief Information Officer (OCIO) directed
             bureaus to transition from analog wideband radio systems to digital
             narrowband operation by January 1, 2005. Our Department-wide radio
             communications program audit disclosed that unsafe and deteriorating
             infrastructure hampered BIA’s implementation of this mandate.

             Until 2003, BIA’s radio communications were managed by two separate
             offices. OLES managed radios for all BIA law enforcement-related
             activities. The Office of Facilities Management and Construction (OFMC)
             managed radios for all other BIA activities. During our audit of the radio
             communications program, it came to our attention that OLES had purchased
             radio equipment from fiscal year 2000 to 2002 that had not been placed in
             service and remained in storage. In October 2003, the Office of Information
             Operations, Telecommunications Division (Telecommunications Division)
             assumed program management and operations of the OLES radio program.




                                         1
This Page Intentionally Left Blank




                2
                              RESULTS OF AUDIT
                   We concluded that BIA mismanaged the radio communications program
                   supporting OLES. We found that BIA:

                      ¾ purchased and stored an estimated $3.6 million in radio equipment it
                        could not use,

                      ¾ lacked inventory controls over approximately $6.2 million in radio
                        equipment purchased since FY2000,

                      ¾ maintained inadequate contract documentation supporting $20
                        million expended on its conversion to narrowband radio technology,
                        and

                      ¾ improperly awarded at least $5.5 million in sole source tasks to a
                        contractor by inappropriately modifying an existing task order.

PURCHASE           BIA started purchasing new radio equipment in FY2000 as part of its
                   conversion to narrowband radio technology mandated by the OCIO. Due to
AND STORAGE
                   unsafe and deteriorating conditions in BIA’s radio communications
OF UNUSABLE        infrastructure, the equipment could not be used. BIA did not have a plan to
RADIO              place the equipment in service prior to purchase. In the absence of a plan,
EQUIPMENT          BIA continued to purchase narrowband radio equipment it could not place in
                   service for at least 2 years. We identified $3.6 million in valuable resources
                   that could have been better spent to improve its radio communications
                   infrastructure. A BIA official stated that he pushed the purchase of
BIA PURCHASED AN
                   equipment to ensure that funding did not expire. Additionally, BIA will
ESTIMATED $3.6
                   continue to incur an estimated $540,000 a year in storage and maintenance
MILLION IN RADIO
                   costs, as well as extensive costs to upgrade, refurbish, replace, or dispose of
EQUIPMENT IT
                   the aging equipment.
COULD NOT USE

                   BIA STORED RADIO EQUIPMENT AT THREE LOCATIONS

                   BIA stored unused radio equipment at the following three locations:

                      ¾ Denver Federal Center Warehouse: This warehouse stored
                        approximately 4,700 pieces of radio equipment valued at an
                        estimated $3.2 million. Equipment included portable and mobile
                        radios, battery chargers, repeater stations, towers, cables, and
                        hardware.




                                               3
                     Radio Equipment Stored in a Warehouse on the Denver Federal Center

                      ¾ General Services Administration (GSA) Warehouse: BIA stored
                        approximately $15,000 of radio accessories, computer software, and
                        infrastructure equipment at a GSA warehouse in Albuquerque, New
                        Mexico. Some of the equipment remained in its original packaging,
                        unopened since its delivery in 2002.




SOME OF THE
EQUIPMENT AT THE
GSA WAREHOUSE
REMAINED IN ITS
ORIGINAL
PACKAGING,
UNOPENED SINCE
ITS DELIVERY IN
2002.




                    Radio Equipment Stored in a GSA Warehouse in Albuquerque, New
                   Mexico

                      ¾ Albuquerque Vendor: A vendor stored approximately $383,000 of
                        BIA’s large radio infrastructure equipment. Items included radio
                        towers communication buildings, and solar power units. More than
                        half of the equipment was stored outside, in the vendor’s lot
                        underneath a freeway overpass.



                                            4
MORE THAN HALF
OF THE EQUIPMENT
AT ONE SITE WAS
STORED OUTSIDE, IN
THE VENDOR’S LOT
UNDERNEATH A
FREEWAY OVERPASS.




                       Radio Equipment Stored Under a Freeway in Albuquerque, New Mexico

                     BIA INCURRING SIGNIFICANT COSTS RELATED TO THE UNUSED
                     EQUIPMENT

                     As a result of its poor planning, BIA continues to incur significant costs
                     related to its unused equipment. We estimate that BIA has spent, and will
                     continue to spend, approximately $540,000 a year to store and maintain the
                     equipment. Additionally, the radio equipment is now over 4 years old,
                     increasing the risk that aging equipment will become obsolete before it can
                     be placed into service. BIA will also incur extensive costs to upgrade,
                     refurbish, replace or dispose of the equipment. The contractor responsible
                     for maintaining equipment at the Denver Federal Center stated that without
                     upgrades, the equipment will be of little to no use. The contractor did not
                     provide an estimate of how much it would cost to upgrade, refurbish,
                     replace, or dispose of that equipment. However, the Albuquerque vendor
                     estimated that it would cost $54,000 to refurbish the $383,000 of equipment
                     being stored underneath the freeway overpass.

INADEQUATE           BIA did not establish adequate property records or inventory controls over
                     approximately $6.2 million in radio equipment purchased from FY2000 to
PROPERTY             FY2004. Specifically, BIA:
RECORDS AND
INVENTORY               ¾ did not record the receipt of radio equipment in a property
CONTROLS                  management system,
OVER RADIO              ¾ did not maintain all purchase and receipt documentation,
EQUIPMENT
                        ¾ did not maintain inventory listings or conduct physical inventory
                          counts, and

                        ¾ did not ensure adequate physical security over equipment stored in
                          the Denver Federal Center warehouse.


                                                5
                  As a result of poor property records and inventory controls, BIA:

                     ¾ cannot determine the actual cost of the equipment in storage;

                     ¾ cannot prevent or detect losses of equipment due to fraud, theft, or
                       negligence; and

                     ¾ risks wasting resources purchasing equipment that it already has in
                       storage.

                  POOR INVENTORY RECORDKEEPING

                  Of the $6.2 million that BIA expended on radio equipment from FY2000 to
                  FY2004, we found that an estimated $3.6 million of that equipment
                  remained in storage. BIA stated that additional equipment was purchased
                  and placed in service; however, it could not provide documentation
                  supporting this assertion.

                  BIA did not maintain adequate documentation of the purchase and receipt of
                  radio equipment. For example, BIA was unable to provide an inventory or
                  cost for the radio equipment stored at the Denver Federal Center because of
                  the poor inventory records. Based on documentation available for 60
                  percent of the equipment, we estimated the total value of the equipment
                  stored at the Center to be approximately $3.2 million.

                  Department policy requires that accountable property records be established
                  and maintained for all Government-owned property in the custody of a
                  contractor, grantee, or other non-federal recipient. The majority of the
                  unused radio equipment purchased by BIA was in the physical custody of
                  non-federal entities. Therefore, BIA should have recorded the equipment in
                  its property management system and maintained adequate inventory records.

OVER A 4 YEAR     Inadequate inventory records and procedures could result in the loss of radio
PERIOD, BIA HAS   equipment due to theft or negligence. Over a 4 year period, BIA has moved
MOVED ITS RADIO   its radio equipment between four storage facilities, substantially increasing
EQUIPMENT         the risk of loss. In 2002, all of the equipment was originally stored at the
BETWEEN FOUR      GSA warehouse in Albuquerque. In 2003, the majority of the equipment
STORAGE           was moved to a contractor’s warehouse in Colorado Springs, Colorado.
FACILITIES,       That equipment was subsequently moved again to the Denver Federal Center
SUBSTANTIALLY     in 2005. A portion of the equipment left at the GSA warehouse was
INCREASING THE    transferred back to the original vendor for storage in 2005. During our
RISK OF LOSS.     review we found approximately $15,000 of radio equipment at GSA’s
                  warehouse for which BIA had lost track. The responsible BIA official had
                  no record of the equipment and was unaware that it was still being stored by
                  GSA.



                                             6
INADEQUATE PHYSICAL SECURITY AT THE DENVER
FEDERAL CENTER WAREHOUSE

BIA lacked adequate security over radio equipment stored at the Denver
Federal Center. During our visit in June 2005, we found:

   ¾ loading dock and interior access doors propped open,

   ¾ equipment stored on open shelves accessible to anyone in the
     warehouse, and

   ¾ no contract employees who could see public access points from their
     work areas.

The equipment was especially at risk of theft because there was public
access to this warehouse when the Department of Treasury held excess
equipment auctions.

We notified the Department of physical security problems. When we
revisited the warehouse in February 2006, BIA had installed a fence in the
warehouse and it now appears there are adequate physical safeguards over
the equipment.




   Fencing Installed to Secure Radio Equipment as a Result of Our Audit




                           7
POOR               BIA did not maintain adequate records on its contracting activity supporting
                   the narrowband conversion. Because procurement records were in such a
CONTRACTING        state of disarray, BIA was unable to locate and provide adequate records
RECORDS            associated with the $20 million expended on the narrowband radio
                   conversion through the end of FY2005.

                   We found that BIA was unable to locate and provide adequate
                   documentation supporting its technical service contracts and task orders.
BIA COULD NOT      Specifically, BIA was unable to locate and provide any contractual
LOCATE FILES FOR   documentation related to either the FY1998 contract with Arrowhead Space
TWO TECHNICAL      and Technology or the FY2000 contract with TRW. When BIA was able to
SERVICES           provide contract files related to technical services contracts/task orders, they
CONTRACTS. FILES   were often missing critical information necessary to constitute a complete
THAT IT WAS ABLE   history of the transaction, such as:
TO PROVIDE WERE
OFTEN MISSING         ¾ modifications,
CRITICAL
INFORMATION.          ¾ statements of work,

                      ¾ inspection and acceptance criteria,

                      ¾ deliverables by the contractor, and

                      ¾ special contract requirements.

                   As previously discussed, BIA was also unable to provide adequate purchase
                   and receipt documentation supporting equipment purchases. In addition to
                   supporting good inventory controls, this documentation is considered
                   contracting records required to be maintained under Federal Acquisition
                   Regulation (FAR).

                   According to FAR, contracting offices are required to establish files
                   containing the records of all contract actions. The documentation must be
                   “sufficient to constitute a complete history of the transaction” including
                   purchase request, acquisition planning information, the entire original signed
                   contract, all contract modifications, and any additional documentation on
                   actions taken by the contracting office.

                   Poor contract recordkeeping prevents BIA from holding contractors
                   accountable to the terms of their contracts and also exposes BIA to a high
                   risk of procurement fraud.




                                               8
Improper          We concluded that BIA violated FAR by inappropriately modifying an
                  existing task order with Mindbank Consulting Group (Mindbank). BIA
Task Order        made five modifications to the task order as of July 2006, increasing its
Modifications     value from $1.5 million to $7.1 million and extending the period of
                  performance by over 2 years. Overall, the modifications more than
                  quadrupled the funding for the task order and nearly tripled the period of
                  performance. We determined that at least three of the modifications,
                  totaling approximately $5.5 million, inappropriately altered the scope of the
                  task order, added significant additional work and funding, and/or
                  substantially extended the period of performance. These modifications
                  resulted in improper sole source awards of additional work to Mindbank in
                  violation of FAR. Figure 1 illustrates the increase in value resulting from
                  the five modifications.


                                             Mod 5
                                          $911,978.00                  Original
                                                                      Task Order
                                             13%
                                                                     $1,548,738.26
                               Mod 4                                      22%
                            $100,000.00
                                1%

MODIFICATIONS
MORE THAN
                                                                                Mod 1
QUADRUPLED THE                                                                  $0.00
FUNDING FOR THE                                                                  0%

TASK ORDER

                                                                                   Mod 2
                                                                               $1,086,480.00
                                                                                    15%




                                 Mod 3
                             $3,469,854.00
                                  49%




                        Figure 1 - Percentage of Costs Associated with the Task Order

                  The original task order was awarded under the General Services
                  Administration Multiple Award Schedule (GSA Schedule) contract.
                  Modifications to task orders are generally made to either correct oversights
                  or address changes in conditions from the original task order.


                                                    9
                   Modifications are appropriate to change administrative information and
                   may be appropriate to add a limited amount of new work to an existing task
                   order. However, if the proposed modification alters the scope of the task
                   order, adds significant additional work or funding, substantially extends the
                   period of performance, or incorporates other major changes, then a
                   determination must be made by the contracting officer whether a proposed
                   change can be processed as a modification or whether the issuance of a
                   separate task order is required. Specifically, the contracting officer must
                   justify in writing, with approval by the competition advocate or an official
                   serving in a position higher than GS-15, that:

                      ¾ only one source is capable of responding due to the unique or
                        specialized nature of the work,

                      ¾ the new work is a logical follow-on to the existing order (providing
                        the original order was placed in accordance with FAR 8.405-1 or
                        8.405-2),

                      ¾ the item is peculiar to one manufacturer, or

                      ¾ an urgent and compelling need exists, and following the ordering
                        procedures would result in an unacceptable delay.

THESE              We reviewed four of the five modifications. We were unable to evaluate
MODIFICATIONS      Modification 4 because BIA could not provide the modification for our
EFFECTIVELY        review. We concluded that Modifications 2, 3, and 5 resulted in substantial
RESULTED IN BIA    changes to the scope of the task order, added significant additional work or
AWARDING           funding, and substantially extended the period of performance. In all cases,
IMPROPER SOLE      we found that the contracting officer did not prepare the required
SOURCE TASK        justification to support the modifications. In our opinion, these
ORDERS UNDER THE   modifications did not meet any of the allowable justification requirements
GUISE OF TASK      and should have been awarded as separate task orders. These modifications
ORDER              effectively resulted in BIA awarding improper sole source task orders under
MODIFICATIONS.     the guise of task order modifications.




                                             10
                             RECOMMENDATIONS
We recommend that the Director, Bureau of Indian Affairs:

 1.     Direct the Telecommunications Division to inventory all radio equipment, record
        the items in appropriate inventory records, and implement inventory controls over
        the equipment.

             BIA’s Response to the Recommendation:

             BIA concurred with this recommendation. BIA stated that it conducted an on-site
             physical inventory and reconciled this inventory against the accounting system’s
             Fixed Asset module. Research is on-going to resolve discrepancies. The target
             completion date is March 30, 2007. BIA will remind staff of the requirement to
             follow existing inventory control policies and procedures.

             OIG’s Analysis of BIA’s Response:

             We consider the recommendation to be resolved, but not implemented.

 2.     Direct the Telecommunications Division to develop and implement a plan to place
        usable equipment in service and dispose of unusable equipment.

             BIA’s Response to the Recommendation:

             BIA concurred with this recommendation. BIA’s Office of the Chief Information
             Officer, as part of its overall planning for the Radio Communication Program, is
             developing a plan to use the serviceable equipment stored at the Denver Service
             Center and the vendor site in Albuquerque, NM. The plan will address the
             disposal of equipment that no longer meets BIA’s requirements.

             OIG’s Analysis of BIA’s Response:

             We consider the recommendation to be resolved, but not implemented.

 3.     Request an opinion from the Office of the Solicitor as to the legality of the
        modifications to the Mindbank task order and take appropriate actions
        recommended by the Office of the Solicitor.

             DOI’s Response to the Recommendation:

             BIA concurred with this recommendation. BIA requested that the Office of the
             Solicitor review both the base task order and modification for legality in light of
             our report findings. In addition, BIA requested that the Office of Solicitor provide


                                              11
          any additional comments and/or recommendations based on the OIG’s report.

          OIG’s Analysis of BIA’s Response:

          We consider the recommendation to be resolved, but not implemented.

4.   Direct the contracting office to implement controls to ensure that contracting
     officers modify contracts and task orders appropriately, especially when
     modifications require full and open competition under FAR.

          DOI’s Response to the Recommendation:

          BIA agreed with us regarding the importance of internal controls within the
          procurement process. However, it believes that sufficient controls are in place to
          ensure that contracting officers modify contracts and task orders in accordance
          with the FAR. In addition to the annual financial statement audit and annual A-
          123 reviews, which examine and test procurement internal controls, BIA conducts
          annual Quality in Contracting Reviews to verify compliance with internal controls.
          BIA will continue to conduct these reviews and make any necessary changes based
          on the Office of the Solicitor comments.

          OIG Analysis of DOI Response:

          BIA believes there are sufficient internal controls already in place. In our opinion,
          if there were sufficient internal controls already in place, we would not have
          identified the problem during our audit. However, the fact that BIA will make any
          necessary changes to the internal controls based on the Office of the Solicitor
          comments meets the intent of our recommendation. Therefore, we consider BIA’s
          comments responsive and consider the recommendation resolved but not
          implemented.

5.   Direct the contracting office to locate, organize and appropriately file all existing
     contracting records associated with the narrowband conversion and implement
     controls to ensure records are adequately maintained in the future.

          DOI’s Response to the Recommendation:

          BIA concurred with this recommendation. BIA requested from the records center
          all existing records related to the Mindbank, TRW and Arrowhead contracts and
          task orders. BIA will review the Federal Finance System to identify all financial
          transactions for the radio program and reconcile the property records. BIA
          contracting officers were reminded of the need to maintain adequate contracting
          files and ensure all regulations, policies and procedures were followed. This
          requirement will be emphasized during the Quality in Contracting reviews
          performed in FY 2007 to ensure that records are being adequately maintained.




                                           12
          OIG’s Analysis of BIA’s Response:

          We consider the recommendation to be resolved, but not implemented.

6.   Take appropriate administrative actions to hold responsible officials accountable.

          DOI’s Response to the Recommendation:

          BIA agreed to analyze the program management process to determine where and
          why breakdowns occurred, identify the responsible personnel, and take action
          where appropriate. However, because these events took place several years ago
          the responsible personnel may no longer work for BIA. BIA will ensure the
          lessons are not lost with current personnel.

          OIG Analysis of DOI Response:

          We consider the recommendation to be resolved, but not implemented.




                                         13
This Page Intentionally Left Blank




               14
                                                                                 Appendix 1


                 SCHEDULE OF MONETARY IMPACT

                                                   Wasted          Funds To Be Put
                   Issue                           Funds*          To Better Use**

Estimated Costs of Unused Equipment
in Storage                                         $ 3,643,685


Costs Already Incurred to Store and
Manage Equipment                                     $ 257,021


Future Costs of Storage and
Maintenance of Unused Equipment                                               $ 540,000


                                   TOTAL           $ 3,900,706                $ 540,000



* Wasted Funds are those funds which cannot be recovered.

** Funds To Be Put To Better Use are those funds which could be saved if the recommendations
   are implemented.




                                             15
This Page Intentionally Left Blank




               16
                                                                                    Appendix 2



            OBJECTIVES, SCOPE, AND METHODOLOGY
The objectives of our audit were to determine whether BIA adequately safeguarded and
accounted for stored radio equipment. Specifically, we determined whether BIA:

   ¾ appropriately placed OLES radio equipment in service and
   ¾ established appropriate inventory controls over OLES radio equipment.

We expanded our scope of work to address contracting issues that came to our attention,
including inadequate contract recordkeeping and inappropriate task order modifications.

To meet these objectives, we:

   ¾ interviewed appropriate BIA, OLES, and Telecommunications Division officials;
   ¾ requested copies of all contracts related to the OLES radio conversion;
   ¾ inspected all locations where OLES radio equipment was being stored;
   ¾ reviewed relevant contracts, task orders, or reports documenting the condition of the radio
     infrastructure;
   ¾ reviewed Departmental requirements for maintaining records on accountable property and
     determined whether BIA had complied with those requirements; and
   ¾ reviewed Federal Acquisition Regulation (FAR) requirements for methods of contracting
     and ordering and determined whether BIA had complied with those requirements.

Our estimates of continuing storage and maintenance costs were based on both costs incurred by
BIA and costs provided by the contractor for specific periods of time in FY2005 and FY2006 for
which we could locate documentation. We estimated an annual cost of approximately $540,000 a
year as follows:

   ¾ Denver Federal Center Warehouse: We estimated storage and maintenance cost for this
     facility as approximately $528,000 a year. This estimate was based on BIA spending
     $66,536 to lease warehouse space from June 2005 to January 2006 and costs of $178,485
     to manage the inventory from October 2005 to February 2006. Management charges
     included preventative maintenance, inventory software development, and labor.

   ¾ GSA Warehouse:        GSA was not charging for storage.

   ¾ Albuquerque Vendor: Our estimate of continuing storage at the Albuquerque vendor was
     based on the previous year’s cost of $12,000.

Audit work was performed from August 2005 to November 2006. Preliminary fieldwork was
conducted beginning in February 2005 as part of our radio communications audit. Our audit was
performed in accordance with the Government Auditing Standards, issued by the Comptroller
General of the United States.


                                               17
This Page Intentionally Left Blank




               18
                                                                      Appendix 3


               ACRONYMS AND ABBREVIATIONS

BIA                Bureau of Indian Affairs
DOI                Department of the Interior
FAR                Federal Acquisition Regulation
FY                 fiscal year
GAO                Government Accountability Office
GSA                General Services Administration
GSA Schedule       General Services Administration Multiple Award Schedule
OCIO               Office of the Chief Information Officer
OFMC               Office of Facilities Management and Construction
OIG                Office of Inspector General
OLES               Office of Law Enforcement Services




                                   19
This Page Intentionally Left Blank




               20
                                 Appendix 4


DOI’S RESPONSE TO DRAFT REPORT




              21
22
23
This Page Intentionally Left Blank




               24
25
26
                                                                Appendix 5



           STATUS OF AUDIT RECOMMENDATIONS


Recommendations          Status               Action Required

   1, 2, 3, 4, 5, 6   Resolved – Not   No further response to the Office
                       Implemented     of Inspector General is required.
                                       The recommendations will be
                                       referred to the Assistant Secretary
                                       for Policy, Management and
                                       Budget for tracking of
                                       implementation.




                               27
This Page Intentionally Left Blank




               28
  Report Fraud, Waste, Abuse,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone: Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
              allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 5341 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free               800-424-5081
                  Washington Metro Area           703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
